HHS/OIG, Audit -"Review Of Transition And Termination Costs For The Medicare Contract Terminated As Of November 30, 2000,"(A-09-03-00032)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review Of Transition And Termination Costs For The Medicare Contract Terminated As Of November 30, 2000," (A-09-03-00032)
October 27, 2003
Complete Text of Report is available in PDF format
(872 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare transition and termination costs claimed
by Blue Cross of California were allowable, reasonable, and allocable, and were supported by adequate documentation under
the provisions of applicable Federal Acquisition Regulation, the Medicare contract and subcontract agreement, and other
Centers for Medicare and Medicaid Services (CMS) instructions.  We concluded that
$95,719 of the $137,131 claimed for transition costs was acceptable.  We recommended a financial adjustment of $35,452.  We
also set aside $5,960 of transition costs for CMSs determination of allowability.  In addition, we concluded that
$222,943 of the $690,008 claimed for termination costs was acceptable.  We recommended a financial adjustment of $283,735.  We
also set aside $183,330 of termination costs for CMSs determination of allowability.